                                       SOCIAL SECURITY
MEMORANDUM

Date:      February 26, 2003                                                  Refer To:

To:        The Commissioner

From:      Inspector General


Subject:   Performance Indicator Audit: Postentitlement Automation Rate (A-15-02-32092)


           We contracted with PricewaterhouseCoopers (PwC) to evaluate the data used to
           measure 18 of the Social Security Administration’s (SSA) performance indicators
           established to comply with the Government Performance and Results Act. Attached is
           the final report that presents the results of two of the performance indicators PwC
           reviewed. The objective of this audit was to assess the reliability of the data used to
           assess the reliability of the data used to measure the Old-Age, Survivors, and Disability
           Insurance and the Supplemental Security Income postentitlement automation rates.

           Please comment within 60 days from the date of this memorandum on corrective action
           taken or planned on each recommendation. If you with to discuss the final report,
           please call me or have your staff contact Steven L. Schaeffer, Assistant Inspector
           General for Audit, at (410) 965-9700.




                                                           James G. Huse, Jr.

           Attachment
           OFFICE OF
    THE INSPECTOR GENERAL

SOCIAL SECURITY ADMINISTRATION



   PERFORMANCE INDICATOR
          AUDIT:

       POSTENTITLEMENT
       AUTOMATION RATE

  February 2003   A-15-02-32092
MEMORANDUM

To:             Office of the Inspector General

From:           PricewaterhouseCoopers LLP

Date:           January 22, 2003

Subject:        Performance Indicator Audit: Postentitlement Automation Rate
                (A-15-02-32092)


The Government Performance and Results Act (GPRA) of 19931 requires the Social
Security Administration (SSA) to develop performance indicators that assess the
relevant service levels and outcomes of each program activity as set forth in its budget.2
GPRA also calls for a description of the means employed to verify and validate the
measured values used to report on program performance.3 The objective of this audit
was to assess the reliability of the data used to measure the following Fiscal Year
(FY) 2002 GPRA performance indicators:

Performance Indicator                                                           FY 2002 Goal

OASDI postentitlement automation rate.                                                  89%4

SSI postentitlement automation rate.                                                    68%5

See Appendix A for a description of the audit scope and methodology.

BACKGROUND
SSA offers retirement and long-term disability programs to the general public. Old-Age,
Survivors, and Disability Insurance (OASDI) is authorized under title II of the Social
Security Act (Act).6 Through the OASDI program, eligible workers and sometimes their
family receive monthly benefits if they retire at an appropriate age or are found to have
a disability that either prevents them from engaging in substantial gainful activity for at
least 12 months or can be expected to result in death.7 Supplemental Security Income
(SSI) is authorized under title XVI of the Act and provides monthly payments to aged,
blind, and disabled individuals based on financial need and medical requirements.8

1
  Public Law No. 103-62, 107 Stat. 285.
2
  31 U.S.C. 1115 (a) (4).
3
  31 U.S.C. 1115 (a) (6).
4
  Social Security: Performance Plan for Fiscal Year 2003, Revised Final Performance Plan for Fiscal Year
2002, page 83.
5
  Ibid.
6
  42 U.S.C. 401. et seq.
7
  42 U.S.C. 423 (d) (1).
8
  42 U.S.C. 1381 et seq.


Performance Indicator Audit: Postentitlement Automation Rate (A-15-02-32092)
One of SSA’s strategic objectives is to “…have the capacity to take and process
99 percent of postentitlement (PE) actions in a paperless environment.” PE actions
refer to information SSA collects and manages after the recipient is approved for
benefits under the OASDI or SSI programs. This on-going maintenance can include
updating contact information, resources, living arrangements, or payment information.

In SSA’s Annual Performance Plan (APP), the OASDI PE automation rate is defined as
the “percentage of total OASDI PE transactions that do not create an exception or alert.”
OASDI PE transactions are entered into SSA systems through Field Offices (FO),
Program Service Centers (PSC), batch files from other Government agencies, or
recirculated transactions.9 The Daily Update Master Accounting System (DUMAS)
creates an exception when the transaction is not able to update the Master Beneficiary
Record (MBR). DUMAS creates an alert when a transaction requires additional
correction after updating the MBR. The APP defines the OASDI PE automation rate as:

                                         OASDI PE transactions that do not create an
                                                           exception or alert
OASDI PE automation rate =               ----------------------------------------------------------------
                                                  All OASDI PE transactions

The FY 2002 APP defines the SSI PE automation rate as the percentage of SSI PE
transactions completed using modernized software compared to all SSI transactions.
SSA is replacing its legacy system, Customer Information Controls System (CICS), with
the Modernized SSI Claims System (MSSICS) for processing initial and PE SSI
transactions. This performance indicator measures the percentage of transactions
submitted through MSSICS versus CICS to update a recipient’s Supplemental Security
Record (SSR). The SSI PE automation rate is calculated with the following formula:


                         Core10 PE transactions through MSSICS
SSI PE automation rate = -----------------------------------------------------
                         All core transactions (MSSICS + CICS)

Appendix B provides more detail on the workflow and description of the OASDI and SSI
PE automation rates.




9
  Recirculated transactions are transactions that were previously submitted, but did not update the
relevant system, as the systems only accept one update per day. As a result, these transactions are
recirculated to update the systems the following day.
10
   Core transactions are defined as transactions that effect payment and eligibility. They do not include
administrative transactions that do not have an impact on customer payment, requests for appeals, or
redeterminations.


Performance Indicator Audit: Postentitlement Automation Rate (A-15-02-32092)                                2
RESULTS OF REVIEW
From May through August 2002, we reviewed the processes, controls, and data used to
generate the FY 2002 PE automation rate performance indicators. We were not able to
recalculate the overall OASDI PE automation rate because SSA does not retain the
initial data. Instead, we matched the daily rate on two separate occasions and reviewed
the process to calculate the yearly performance indicator. However, SSA’s
methodology to calculate the final performance indicator value does not match the
definition published in the FY 2002 APP. We also matched the year-to-date value of the
SSI PE automation rate. We have several findings regarding the calculation of the
OASDI and SSI PE automation rate.

PERFORMANCE INDICATOR DATA WAS RELIABLE

We reviewed SSA’s methodology to calculate the OASDI and SSI PE automation rate
for FY 2002. At the time of our review, SSA had not completed calculation of the 2002
performance indicators. Because these are new performance indicators, we were not
able to validate previous year results. For the OASDI PE automation rate, we were not
able to validate the year-to-date calculation because SSA does not retain the data.
Instead, we validated two daily counts and reviewed the methodology SSA uses to
calculate the annual performance indicator. Our daily counts matched SSA’s counts
exactly. We then reviewed SSA’s methodology to calculate the annual performance
indicator. We found that SSA’s definition from the APP is inconsistent with SSA’s
method of calculation. In addition, SSA does not include all exceptions and alerts in its
calculation. Adding the excluded exceptions and alerts to SSA’s monthly data
summaries from FY 2000 and FY 2001, we recalculated the OASDI PE automation rate.
The rate fell from 90.1 percent to 89.2 percent for 2001 and from 89.5 percent to
88.6 percent for 2000. Because 2002 data is not available, we are not able to
determine the impact on 2002. Finally, SSA currently calculates the measure on a
calendar year basis, although they report by FY. We describe our findings for the
OASDI automation rate in more detail below.

For the SSI PE automation rate, we validated year-to-date results for the first 40 weeks
of FY 2002 at 68.2 percent. The value we calculated was 68.2 percent, which matches
SSA’s calculations exactly. Overall, we found the calculations for the SSI PE
automation rate to be reliable. During our review we noted some issues that we discuss
below.

Definition of the OASDI PE automation rate is inconsistent with its measurement

Our audit identified several problems with the calculation of the OASDI PE automation
rate, related to the data included in the numerator, data included in the denominator,
and the period of performance being measured.




Performance Indicator Audit: Postentitlement Automation Rate (A-15-02-32092)         3
The Office of System Design and Development does not measure the number of
alerts in the numerator

SSA’s FY 2002 APP defines the OASDI PE automation rate as the percentage of
transactions that do not create an exception or alert. However, the Office of System
Design and Development (OSDD), indicated that systems are not programmed to
capture the number of alerts separately from the number of exceptions. As a result,
OSDD measures the OASDI PE automation rate as the number of transactions that do
not create an exception. To make the calculation consistent with the APP’s definition,
OSDD would need to identify and subtract the number of alerts in the numerator11 of
their formula to calculate the OASDI PE automation rate.

The Office of System Design and Development does not include all appropriate
transactions in the denominator

OSDD estimates the number of OASDI PE transactions (in the denominator of the
equation) by adding the number of transaction that update the MBR and the number of
exceptions or alerts that are sent to the PSC for correction. However, OSDD does not
include the exceptions or alerts that are sent to the FO for correction. OSDD indicated
these are not included because these alerts or exceptions are the result of keying
errors. OSDD asserted that the OASDI PE automation rate is intended to measure
progress in updating title II systems, the Title II Redesign, and does not include these
exceptions or alerts because they are not created as a result of system limitations.
The Strategic Objective that this performance indicator supports is to “improve or
maintain the accuracy, timeliness, and efficiency of processing postentitlement events.”
This Strategic Objective does not exclude keying errors from the calculation.

After adding in these additional exceptions/alerts, the OASDI PE automation rate
decreased from 90.1 percent to 89.2 percent for 2001 and from 89.5 percent to
88.6 percent in 2000. Because the data was not available for FY 2002, we were unable
to determine the impact on FY 2002.

Period of performance

In addition, OASDI currently calculates the OASDI PE automation rate on an annual
basis, not by FY. Typically, SSA reports all performance indicators on a FY basis. SSA
does not indicate in its APP that they are reporting the performance indicator on a
calendar basis.

Data to recalculate the OASDI PE automation rate is not available

GPRA requires that Federal agencies retain documentation and data to allow
verification of the performance indicator’s value where possible. The files used to
calculate the OASDI PE automation rate are purged from the systems after 60 to

11
   Exceptions are created when transactions do not update the MBR. They would already be excluded
from the numerator.


Performance Indicator Audit: Postentitlement Automation Rate (A-15-02-32092)                    4
90 days. OSDD does retain the Excel spreadsheets that calculate the monthly and
annual total using summary data from the initial data files. However, it does not retain
or archive the initial data used to create the spreadsheets.

Lack of internal controls in calculating the OASDI PE automation rate

During our audit, we noted SSA has limited internal controls to ensure accurate
calculation of the OASDI PE automation rate. OSDD transfers data used to calculate
the OASDI PE automation rate between multiple staff and Excel spreadsheets. In
addition, OSDD has no quality reviews on data that is calculated or transferred between
spreadsheets to ensure accuracy. There is, however, an informal, limited review of the
general data to ensure that the monthly summary data is entered into the spreadsheets
correctly and “looks right.”

Definition of the SSI PE automation rate is inconsistent with its measurement

SSA’s FY 2002 APP defines the SSI PE automation rate as the percentage of SSI PE
transactions completed using the modernized software compared to all SSI
transactions. However, the Office of Automation Support (OAS) measures the
percentage of SSI PE transactions completed using the modernized software compared
to all SSI “PE” transactions. The Strategic Objective that this performance indicator
supports is to “…improve or maintain the accuracy, timeliness, and efficiency of
processing postentitlement events.” While the calculation supports the strategic
objective, it does not match the published definition.

SSI PE automation rate may double-count some transactions

Both MSSICS and CICS count PE transactions that update the SSR. Some CICS or
MSSICS transactions are not able to update the SSR. These transactions are rejected
from the system and sent to a PSC or FO for correction. After the transaction is
corrected and resubmitted, it is counted again for the performance indicator. As a
result, both CICS and MSSICS transactions may be overstated. OAS estimated that
due to improved system edits, the rejection rate for MSSCIS is close to zero percent.
OAS estimated the rejection rate for CICS, the legacy system, at close to 10 percent.
Because the rejection rate of CICS is higher than the rejection rate for MSSICS, the
denominator of the SSI PE automation rate formula may be increased. As a result, the
performance indicator may be understating the true SSI PE automation rate.

Lack of documentation in calculating both the OASDI and SSI PE automation
rates

During our review, we noted that SSA lacks documentation of the methodology used to
calculate both the OASDI and SSI PE automation rates. The process to calculate the
OASDI PE automation rate is complex and involves calculations in multiple
spreadsheets. OSDD lacks documentation to explain the overall process. As a result,




Performance Indicator Audit: Postentitlement Automation Rate (A-15-02-32092)          5
SSA risks continuity in calculating the performance indicator, should key staff no longer
be available.

For the SSI PE automation rate, OAS lacks documentation to define “core” transactions
and explain how or when these transactions are identified or counted. As a result, OAS
risks continuity in calculating the performance indicator and making future changes
incorrectly.

OAS also lacks documentation to define its data source for both performance indicators.
The FY 2002 APP lists the data source for both the OASDI and the SSI PE automation
rate as Office of Systems Information Technology Plans and Office of Systems
Management Information. OSDD indicated that the data source for the OASDI PE
automation rate includes DUMAS, the Processing Center Action Control System, and
the many application programs that update the MBR. OAS has indicated that the data
source for the SSI PE automation rate does not include the Office of System Information
Technology Plans.

OTHER MATTERS
We also determined if each performance indicator was an appropriate GPRA measure.
We found both indicators were not outcome or output oriented as prescribed by GPRA.
However, since the performance indicators measure progress for a key SSA initiative
they meet the requirements for AAP performance indicators. The Office of
Management and Budget Circular No. A-11, Part 6: Preparation and Submission of
Strategic Plans, Annual Performance Plans, and Annual Performance Reports, section
220-8(e) states that APP performance indicators may include goals that measure the
means or strategies that an agency will use to achieve its performance goals and
indicators. This can include technologies applied to achieve a program or operational
goal. We therefore found that these performance indicators were appropriate measures
for the APP.

CONCLUSIONS AND RECOMMENDATIONS
We found that while the OASDI PE automation rate excluded some data that impacts
the performance indicator’s value, the methodology appears accurate. The
methodology to calculate the SSI PE automation rate was correct, although some
transactions may be double-counted due to system limitations. We noted issues with
reporting both performance indicators related to their definition and calculation. Our
audit identified six opportunities for improvement. Our recommendations are as follows.

Resolve discrepancy between the definition and calculation of the OASDI PE
automation rate

According to the OASDI definition, SSA measures the number of exceptions and alerts
that are created from PE transactions. However, OSDD has indicated that its systems
are not currently programmed to count PE transactions that create alerts and does not


Performance Indicator Audit: Postentitlement Automation Rate (A-15-02-32092)          6
subtract these from the numerator. We recommend that SSA resolve this discrepancy
to align the measure with the definition.

In addition, OSDD does not include all PE transactions that create an exception or alert
in the denominator. Specifically, they do not include exceptions or alerts sent to FOs for
correction because they feel these are the result of keying errors. The APP does not
make this distinction. We recommend that SSA add the transactions that create
exceptions and alerts for FO resolution to the calculation or clarify the definition and
purpose of the performance indicator.

Finally, we recommend that SSA either clarify the period of performance in the APP for
reporting the OASDI PE automation rate or modify the calculation.

Retain relevant data for the OASDI PE automation rate

We recommend that SSA retain the original data used to calculate the OASDI PE
automation rate. This will improve the ability of third parties to review and validate
performance indicator accuracy rates in the future.

Implement internal control procedures for the OASDI PE automation rate

We recommend that SSA create and implement control procedures to ensure that the
OASDI PE automation rate calculations are accurate. The process to calculate the
OASDI PE automation rate is complex with data being copied between spreadsheets,
manual calculations, multiple points of initial data entry into the spreadsheets, and
transferring the file among multiple staff. Because there are limited internal controls and
reviews, a risk for inaccuracies in data entry, calculations, or processing is created. In
addition, SSA could increase the automation of calculating the performance indicator
and, thereby, decrease the opportunities for errors.

Change the definition of the SSI PE automation rate

We recommend that SSA change the definition of the SSI PE automation rate to read
“…the percentage of SSI PE transactions completed using the modernized software
compared to all SSI PE transactions.” We believe omission of “PE” in the definition was
an oversight and SSA should clarify this in future APP publications.

Eliminate duplicate counts in calculating the SSI PE automation rate

We recommend SSA identify transactions that are recirculated in both MSSICS and
CICS to get an accurate SSI PE automation rate. As SSA transfers cases from the
legacy system, CICS, to the modernized system, MSSICS, this issue will be eliminated
or reduced. However, SSA could not produce definitive information on the exact
number of cases that are recirculated and double-counted. We recommend that SSA
either identify and remove the duplicate transactions from the counts or produce a
statistically valid estimate of the number of recirculated transactions.



Performance Indicator Audit: Postentitlement Automation Rate (A-15-02-32092)             7
Document methodology to calculate both the OASDI and SSI PE automation rate

We recommend that SSA document its methodology for calculating both the OASDI and
the SSI PE automation rate. Documentation will help ensure continuity in calculating
the performance indicator and to document reasons for any changes to the process.
Because of the complexity in these performance indicators, SSA’s documentation
should include a description of why certain exceptions, alerts, or “core” transactions
were included in the calculation. While completing this audit we found that OSDD had
begun documentation of the methodology for the OASDI PE automation performance
indicator. We recommend they continue and expand their documentation to include a
description of the process, data source, methodology, and any known data limitations
and their impact.

AGENCY COMMENTS
SSA partially agrees with Recommendation 1, but does not believe it should redirect
information technology resources to address the discrepancy identified. In addition,
SSA believes that the next release of the title II redesign, scheduled for April 2004, will
largely resolve the issue. SSA disagrees with Recommendation 2 and 3, largely due to
resource constraints and system limitations. SSA will consider both Recommendations
4 and 5. SSA agrees with Recommendation 6. The full text of SSA’s comments can be
found in Appendix D.

PWC RESPONSE
PwC acknowledges that SSA’s information technology resources are limited, but
believes that SSA should achieve the majority of our recommended improvements
without having to redirect information technology resources from its redesign efforts.
For Recommendation 1, PwC continues to believe that SSA should resolve the
discrepancy between the definition and the calculation of the performance indicator.
The solution could simply be to modify the definition in SSA’s APP. For
Recommendation 2, we continue to believe that SSA should save the daily summaries
used to calculate the OASDI PE automation rate, not necessarily all daily transactions.
With respect to Recommendation 3, we believe that the lack of adequate internal
controls and reviews increases the risk of errors. By reducing the number of
spreadsheets, manual calculations, multiple data entry points, and transfers of files
among multiple staff, SSA should reduce the opportunity for errors, thereby improving
internal controls. We also continue to believe that SSA needs to take action to address
Recommendations 4 and 5.




Performance Indicator Audit: Postentitlement Automation Rate (A-15-02-32092)           8
                                       Appendices
APPENDIX A – Scope and Methodology
APPENDIX B – Flowcharts and Descriptions
APPENDIX C – Acronyms
APPENDIX D – Agency Comments




Performance Indicator Audit: Postentitlement Automation Rate (A-15-02-32092)
                                                                 Appendix A
Scope and Methodology
We conducted this audit to examine Social Security Administration’s (SSA) Fiscal Year
(FY) 2002 Old-Age, Survivor, and Disability Insurance (OASDI) and Supplemental
Security Income (SSI) Postentitlement (PE) automation rate performance indicators.
SSA developed these performance indicators to meet the requirements of the
Government Performance and Results Act (GPRA). FY 2002 PE automation data and
results were not complete at the time of this audit. Because historical data is not
retained for the OASDI performance indicator, we recalculated SSA’s daily calculation
for 2 days and reviewed the methodology to calculate the monthly and annual totals.
For the SSI PE automation rate, we calculated the year-to-date results. We evaluated
SSA’s internal controls and methodology for both indicators.

We performed our testing from May 1, 2002 through July 18, 2002 as follows:
  § Obtained Locate Beneficiary Indicator and counts for 2 days from the PE
     processing systems;
  § Recalculated the PE automation rate for these 2 days;
  § Reviewed the Office of System Design and Development’s Excel data models
     that calculate the monthly and annual PE automation rate; and
  § Created flowcharts to document our understanding of the performance indicator.

To test the accuracy and reliability of the SSI PE performance data, we:
   § Obtained data used to calculate the performance indicator for the first 40 weeks
       of the FY;
   § Recalculated the SSI PE automation rate for the first 40 weeks of the FY;
   § Reviewed the Office of Automation Support’s methodology to calculate the
       performance indicator; and
   § Created flowcharts to document our understanding of the performance indicator.

In conducting this audit, we also:
    § Reviewed SSA's Accountability Report for FY 1999, SSA's Annual Performance
      Plan (APP) for FY 2001, and SSA's Revised Final APP for FY 2002 to determine
      the baseline data, definition, and data source for the performance indicator;
    § Reviewed GPRA and related Office of Management and Budget regulations;
    § Interviewed Office of Systems staff to document the methodologies and
      procedures used to produce performance data for this indicator; and
    § Interviewed analysts to gain an understanding of the PE transaction process, the
      performance indicator calculation methodology used, and other relevant matters.

Our audit was limited to testing at SSA’s Headquarters in Woodlawn, Maryland. The
procedures we performed were in accordance with the American Institute of Certified
Public Accountants’ Statement on Standards for Consulting Services and the General
Accounting Office’s Government Auditing Standards (“Yellow Book”) for performance
audits.


Performance Indicator Audit: Postentitlement Automation Rate (A-15-02-32092)
                                                               Appendix B
Flowcharts and Descriptions




Performance Indicator Audit: Postentitlement Automation Rate (A-15-02-32092)
                                          SSI PE Automation Rate-
                                            Data Entry Process

                                           Can the
                                                                                                                                 MSSICS creates
                     FO, PSC, or TSC      change be              FO, PSC or TSC                                                                      System compares
                                                          Yes                                   Does data pass         Yes         new SSR in
SSI PE transaction    have a SSI PE       entered in             enters change in                                                                    old and new SSR
                                                                                                MSSICS edits?                    overnight records
                          update          MSSICS?                    MSSICS                                                                               records
                                                                                                                                       batch


                                                 No                                                        No



                                                                                                FO or TSC must                                       MSSICS receives
                                       FO or TSC enters
                                                                                                correct, edit and                                     credit for any
                                        change in CICS
                                                                                                    resubmit                                            changes




                                       CICS updates the
                                                                                          Transmitting office
                                       SSR and receives         Was there an        Yes
                                                                                          receives exception
                                         credit for the           error?
                                                                                             for correction
                                          transaction

                                                                       No



                                                                Updated SSR




                                                                                                                      MSSICS sends
                                                                                    Was there an         Yes               alert to
                                                                                      error?                        transmitting office
                                                                                                                       for correction


                                                                                           No


                                                                                    Updated SSR




Performance Indicator Audit: Postentitlement Automation Rate (A-15-02-32092)                                                                                      B-1
Supplemental Security Income (SSI) postentitlement (PE) automation rate data entry process:

1. Field Office (FO), Program Service Center (PSC) or Teleservice Center (TSC) have a SSI PE update.
2. Can the change be entered in the Modernized SSI Claims System (MSSICS)? If no, go to step 3; if yes go to step 8.
3. The FO or TSC enters the change in the Customer Information Controls System (CICS).
4. CICS updates the Supplemental Security Record (SSR) and receives credit for the transaction.
5. Did an error occur? If no, go to step 6; if yes, go to step 7.
6. SSR information is updated.
7. The transmitting office receives an exception for the correction.
8. FO, TSC, or PSC enters the change in MSSICS.
9. Does the data pass MSSICS edits? If no, go to step 10; if yes, go to step 11.
10. The FO or TSC must correct and resubmit the transactions.
11. MSSICS creates a new SSR in an overnight batch process.
12. The system compares the old and the new SSR records.
13. MSSICS receives credit for any changes that occurred to the SSR.
14. Did an error occur? If no, go to step 15; if yes, go to step 16.
15. The SSR is updated.
16. MSSICS sends and alert to the transmitting office for correction.
17. Go to step 2.




Performance Indicator Audit: Postentitlement Automation Rate (A-15-02-32092)                                           B-2
                                     SSI PE Automation Rate-
                                           Calculation


                   OIM updates the                                             Excel spreadsheet
  OIM receives                         OAS runs program   OAS enters count
                   PE Management                                                 calculates PE     PE Automation
MSSICS and CICS                         that generates       into Excel
                     Information                                                Automation Rate        Rate
  transactions                          monthly count       spreadsheet
                    summary data                                                    monthly




SSI PE automation rate calculation:
   § Office of Information Management (OIM) receives counts of MSSICS and CICS transactions.
   § OIM updates the post entitlement (PE) management information summary data.
   § The Office of Automation Support (OAS) runs a program that generates monthly counts.
   § OAS enters monthly counts into an Excel spreadsheet.
   § The excel spreadsheet calculates that Supplemental Security Income PE automation rate monthly and annually.




Performance Indicator Audit: Postentitlement Automation Rate (A-15-02-32092)                                       B-3
                                                                OASDI PE Automation Rate
                                                                    Data Production
                                                                            Recirculated
                                                                            transactions




                                                                              PE search
  Recirculated         FO, PSC, CO (3rd                                       prioritizes                                                                    Application
  transactions                                                                                          PE Search puts
                        party ), or title II        PE sy stems send      transactions and                                         PE Search sends        programs build a       Applications send
                                                                                                         LBIs and lower
                       applications enter              a "f inder"        attaches highest                                         LBI to Application      PUT record to         PUTs and LBIs to
                                                                                                       priority f inders into
                         data into PE                 to PE Search         priority f inder to                                        programs            update the MBR              DUMAS
 PE transaction                                                                                               LBI f ile
                            sy stems                                      MBR to create a                                                                      record
                                                                                  LBI




                                                                                          DUMAS creates a
                                                                                                                            Does the
        DUMAS receiv es                   Can                                                 count of                                   Y es                          DUMAS sends the
                                                         Y es      Transaction                                            transaction              DUMAS creates
        and counts LBIs             transaction be                                        transactions that                                                             alert to PSC f or
                                                                 updates the MBR                                           create an                  an alert
           and PUTs                   processed?                                           update the MBR                                                              correctiv e action
                                                                                                                             alert?
                                                                                               (ULBI)

                                               No                                                                                No


           LBI count
                                                                                                 ULBI count              Updated MBR                               Alert            Updated MBR




                                                                 DUMAS sends the
                                    DUMAS creates
                                                                   excpetion to                       Exception
                                     an exception
                                                                     PCACS




Performance Indicator Audit: Postentitlement Automation Rate (A-15-02-32092)                                                                                                                B-4
OASDI PE automation rate data production:
  § FO, PSC, central office – third-party) or title II applications enter data into a PE system.
  § PE system sends a “finder” to PE Search.
  § PE Search prioritizes transactions and attaches the highest priority finder to the original Master Beneficiary Record
    (MBR) record to create a locate beneficiary indicator (LBI).
  § PE Search also identifies transactions that will recirculate.
  § PE search puts LBIs and lower priority finders into an LBI-All file.
  § PE search sends the LBIs to the application programs.
  § The application programs build a PE Update Transaction (PUT) record to update the MBR record.
  § Applications send the PUTs and LBIs to the Daily Update Master Accounting System (DUMAS).
  § DUMAS receives and counts PUTs and LBIs.

Can the transaction be processed? If the transaction cannot be processed the following takes place:
  § DUMAS creates an exception.
  § DUMAS sends the exception to the Processing Center Action Control System (PCACS).

If the transaction can be processed the following takes place:
     § The transaction updates the MBR.
     § DUMAS creates a count of updated LBIs (ULBI), or transactions that update the MBR.

Does the transaction create an alert? If yes:
  § DUMAS creates an alert and sends the alert to the PSC for corrective action.
  § The MBR is updated.




Performance Indicator Audit: Postentitlement Automation Rate (A-15-02-32092)                                                B-5
                                                              OASDI PE Automation Rate
                                                                 Calculation Process                                                                                                 Manual Input
                                                                                                                                                                                       Totals




     LBI count                Programmer A
                                                                                                                                                               Programmer B
                                downloads                                        Branch Chief           Programmer B               Programmer B                                      Programmer B
                                                      Programmer A                                                                                          pulls T2 Redesign
                              monthly LBI and                                  reviews Excel file     combines totals for         enters totals into                               adds Manual Input
                                                    sends Excel file to                                                                                     totals from intranet
                             ULBI counts from                                    and sends to          each application          new preformatted                                       Totals to
                                                       Branch Chief                                                                                          and adds to Excel
                             system into Excel                                  Programmer B               program               Excel spreadsheet                                    spreadsheet
    ULBI count                                                                                                                                                spreadsheet (1)
                               spreadsheet




                                                                                                                                                              Spreadsheet            Branch Chief
    Programmer B              Branch Chief                                       Branch Chief         Branch Chief adds            Spreadsheet                calculates the         reports final
                                                   Spreadsheet sums
     sends Excel             copies into new                                     copies annual        PCACS Receipts               calculates the              processing             processing
                                                      information
    spreadsheet to         preformatted Excel                                   summary to final            to final              Calculated Input          percentage, or PE       percentage to
                                                        annually
     Branch Chief             spreadsheet                                      Excel spreadsheet         spreadsheet               Accounts (2)              Automation Rate        OSSIS Division
                                                                                                                                                                    (3)                Director



                                                                                                          PCACS Receipts                                                              OASDI PE
                                                                                                                                                                                   Automation Rate




                                                                                         Branch Chief
                                                                                                                   Spreadsheet
                                                                                        enters monthly
                                                            Title II Claims                                         estimates
                                                                                          MCS and
                                 Title II Claims          Processing Report                                         MADCAP                   Manual Input
                                                                                          MADCAP
                               Processing Report             delivered to                                         Processed and                Totals
                                                                                     transaction volume
                                                            Branch Chief                                        Input Accounts for
                                                                                           in Excel
                                                                                                                 PE transactions
                                                                                         spreadsheet


                                                             COS Report               Division Director           Programmer B
                                                               delivered              delivers hardcopy            keys PCACS
                                  COS Report                                                                                                PCACS Receipts
                                                            (hardcopy) to              COS report to            receipts into Excel
                                                           Division Director           Programmer B                spreadsheet




1. See: http://mi.ba.ssa.gov/EMIS/MGMNT/OSDD/OSDD_MENU.CFM
2. Calculated Input Accounts = PCACS Receipts+ Processed Accounts
3. PE Automation Rate = Processed Accounts/Calculated Input Accounts




Performance Indicator Audit: Postentitlement Automation Rate (A-15-02-32092)                                                                                                                           B-6
OASDI PE automation rate calculation process:
  § Programmer A downloads monthly LBI and ULBI counts from the system into Excel spreadsheets.
  § Programmer A sends the Excel file to the Branch Chief.
  § Branch Chief reviews the Excel file and sends it to Programmer B.
  § Programmer B combines totals for each application program.
  § Programmer B enters the totals into a new preformatted Excel spreadsheet.
  § Programmer B pulls Title II Redesign totals from the Intranet and adds them to the Excel spreadsheet.
  § Programmer B adds the manual input totals to spreadsheet (See process to calculate the manual input totals below).
  § Programmer B sends the Excel spreadsheet to the Branch Chief.
  § Branch Chief copies the data into a new preformatted Excel spreadsheet.
  § The spreadsheet sums the data annually.
  § Branch Chief copies the annual summary to a final Excel spreadsheet.
  § Branch Chief adds PCACS Receipts to the final spreadsheet (see Computer Output Section (COS) report below).
  § The spreadsheet calculates the Calculated Input Accounts (PCACS Receipts plus Processed Accounts).
  § Spreadsheet calculates the processing percentage or PE automation rate (Processed Accounts/Calculated Input
    Accounts).
  § Branch Chief reports final processing percentage to the Division Director.

Title II Claims Processing Report:
    § The title II Claims Processing report is delivered to the Branch Chief.
    § Branch Chief enters monthly Modernized Claims Systems and Manual Adjustment Credit and Award Process
        (MADCAP) transaction volumes in an Excel spreadsheet.
    § Spreadsheet estimates the number of MADCAP Processed and Input Accounts for PE transactions.

COS Report:
  § The COS report is delivered in hardcopy format to the Division Director.
  § Division Director delivers the hardcopy COS report to Programmer B.
  § Programmer B keys PCACS receipts into an Excel Spreadsheet.




Performance Indicator Audit: Postentitlement Automation Rate (A-15-02-32092)                                        B-7
                                                                Appendix C
Acronyms
APP         Annual Performance Plan
CICS        Customer Information Controls System
COS         Computer Output Section
DUMAS       Daily Update Master Accounting System
FO          Field Office
FY          Fiscal Year
GPRA        Government Performance and Results Act
LBI         Locate Beneficiary Indicator
MADCAP      Manual Adjustment Credit and Award Process
MBR         Master Beneficiary Record
MSSICS      Modernized SSI Claims System
OAS         Office of Automation Support
OASDI       Old-Age, Survivors, and Disability Insurance
OIM         Office of Information Management
OSDD        Office of System Design and Development
PCACS       Processing Center Action Control System
PwC         PricewaterhouseCoopers
PE          Postentitlement
PUT         PE Update Transaction
PSC         Program Service Center
SSA         Social Security Administration
SSI         Supplemental Security Income
SSR         Supplemental Security Record
TSC         Teleservice Center
ULBI        Updated Locate Beneficiary Indicator




Performance Indicator Audit: Postentitlement Automation Rate (A-15-02-32092)
                                                                Appendix D
Agency Comments




Performance Indicator Audit: Postentitlement Automation Rate (A-15-02-32092)
                                         SOCIAL SECURITY

MEMORANDUM


Date:       January 16, 2003                                                      Refer To:   S1J-3

To:         James G. Huse, Jr.
            Inspector General

From:       Larry W. Dye      /s/
            Chief of Staff

Subject:    Office of the Inspector General (OIG) Draft Report, "Performance Indicator Audit: Post
            Entitlement Automation Rate” (A-15-02-23092)—INFORMATION



           We appreciate OIG’s efforts in conducting this review. Our comments on the draft report
           content and recommendations are attached.

           Staff questions may be referred to Laura Bell on extension 52636.

           Attachment:
           SSA Response




           Performance Indicator Audit: Post Entitlement Automation Rate (A-15-02-32092)              D-
           1
COMMENTS ON THE OFFICE OF THE INSPECTOR GENERAL (OIG) DRAFT
REPORT “PERFORMANCE INDICATOR AUDIT: POSTENTITLEMENT
AUTOMATION RATE” (AUDIT NO. A-15-02-32092)


We appreciate the opportunity to review and comment on the draft report. We are
pleased with your conclusion that the methodology used to calculate the Old Age
Survivors and Disability Insurance (OASDI) and Supplemental Security Income (SSI)
Postentitlement (PE) automation rates appear accurate. We constantly evaluate and
modify the measures contained in the Agency Performance Plan (APP), and note that
from year to year while some measures are added and others are taken out, we
continue to track previous measures internally and use that data in the day-to-day
management of the workloads. Our responses to the specific recommendations are
provided below. We also include a technical comment that should be included in the
final report.

Recommendation 1
The Social Security Administration should resolve the discrepancy between the
definition and calculation of the OASDI PE automation rate.

SSA Response

We acknowledge your finding regarding the exclusion of certain elements in the
measure's calculations. However, we do not believe that we should redirect information
technology (IT) resources from our title II redesign efforts to address differences that
occur due to unavoidable omission of alert data. We believe the title II system redesign,
release 3, scheduled for
April 2004 will, to a large extent, address the concerns identified.

With respect to the intentional omission of Field Office (FO) generated exceptions into
the denominator, we continue to support excluding them as they represent keying
errors. We will consider adding a notation to the performance indicator to describe what
the calculations do not include, why, and that the impact is insignificant (less than one
percent).

As you noted, SSA does report most MI on a fiscal year basis. We can adjust the
OASDI PE automation rate period to a fiscal year, rather than a calendar year to be
consistent with other reporting periods.




Performance Indicator Audit: Postentitlement Automation Rate (A-15-02-32092)          D-
2
Recommendation 2
SSA should retain relevant data for the OASDI PE automation rate.

SSA Response

We disagree. The information is collected from daily input runs that could represent as
many as 500,000 to 3 million transactions. We believe the volume is just too large to
retain it beyond our current 60-day period.

Recommendation 3
SSA should implement internal control procedures for the OASDI PE automation rate

SSA Response

We disagree. IT resources are very limited. If the results of the audit had found that the
daily counts derived by auditors did not match SSA's exactly, we would be open to
evaluate what else could be done beyond our current limited controls. With respect to
automating the process, we believe the redesigned title II system release 3, scheduled
for April 2004 will address the concerns identified.

Recommendation 4
SSA should change the definition of the Supplemental Security Income (SSI) PE
automation rate

SSA Response

We will consider modifying the definition in future performance indicator documents.

Recommendation 5
SSA should eliminate duplicate counts in calculating the SSI PE automation rate

SSA Response

We will consider modifying the SSI PE system functions as we prioritize our future IT
needs and resources.




Performance Indicator Audit: Postentitlement Automation Rate (A-15-02-32092)            D-
3
Recommendation 6
SSA should document methodology used to calculate both the OASDI and SSI PE
automation rate.

SSA Response

We agree. We completed the documentation for the methodology to calculate the
OASDI PE automation rate in the summer of 2002 and will complete the documentation
for the methodology to calculate the SSI PE automation rate by July 2003.

Technical Comments

The audit was conducted prior to the Deputy Commissioner for System’s (DCS)
reorganization, and the references to the Office of Systems Design and Development
are no longer current. The responsibility for calculating the OASDI PE automation rate
performance indicator, which is measuring the success of title II redesign, now resides
in DCS' Office of Retirement and Survivors Insurance Systems.




Performance Indicator Audit: Postentitlement Automation Rate (A-15-02-32092)         D-
4
